              Mid-range Computer Storage Resources Need
              Better Administration to Ensure Effective and
               Efficient Utilization and Accurate Reporting

                                     July 2005

                       Reference Number: 2005-20-098




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       July 21, 2005


      MEMORANDUM FOR CHIEF INFORMATION OFFICER


      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Mid-range Computer Storage Resources
                                    Need Better Administration to Ensure Effective and Efficient
                                    Utilization and Accurate Reporting (Audit # 200320016)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      mid-range computer storage management. The overall objective of this review was to
      assess the effectiveness and efficiency of the IRS’ mid-range computer1 storage
      management practices.
      In summary, the IRS requires a large and complex computer environment to process
      and store taxpayer, financial, and administrative data. In October 2004, the IRS had
      approximately 340.2 terabytes2 of storage capacity on the mid-range computer storage
      area networks (SAN).3 In Fiscal Years (FY) 2002 - 2005, the Enterprise Operations
      function Distributed Systems Management Branch spent about $23.2 million to
      purchase 156.7 terabytes ($147,797 per terabyte)4 of mid-range computer storage
      hardware, software, maintenance, and other support.
      Our review indicates mid-range computer SANs are not effectively managed to ensure
      efficient utilization of storage resources. The Distributed Systems Management Branch
      monitors only the amount of storage that is allocated to applications and has not



      1
        Mid-range computers consist of file servers and related hardware, software, maintenance, and services; support
      enterprise application systems; and are located at the Computing Centers. IRS Computing Centers support tax
      processing and information management through a data processing and telecommunications infrastructure.
      2
        One terabyte equals approximately 500 million pages of text.
      3
        A SAN is a fiber-based, dedicated, high-speed network used to move large volumes of data between computer
      systems and the storage devices.
      4
        The average cost per terabyte equals $23,159,747 (rounded to $23.2 million for report purposes) divided by
      156.7 terabytes.
                                                          2

implemented the ControlCenter®5 storage management tool or an alternative process to
assess the utilization of its allocated SAN storage space. To begin addressing its lack
of storage utilization management information, the Distributed Systems Management
Branch is currently establishing a SAN Development Laboratory to assess storage
management tools. Our analysis of allocated and utilized SAN storage determined the
IRS has used approximately 35.5 percent of the allocated storage space. Therefore,
the IRS could avoid spending approximately $9.9 million for additional storage capacity
by improving the efficiency of its use of the current storage capacity.
In addition, duplicate and old files are not being routinely identified in the SANs because
mid-range computer storage personnel do not monitor storage usage and consider it a
responsibility of the application owners to identify and remove duplicate or old data. To
address prevention of duplicate data storage across existing and future application
systems, the Modernization and Information Technology Services organization
established the Enterprise Data Management Office in November 2002. The Enterprise
Data Management Office is currently working on the Enterprise Data Warehouse
Strategy.
Storage capacity is not accurately, consistently, and completely reported. Distributed
Systems Management Branch personnel use computer software to detect and diagram
mid-range computer SAN storage and manually prepare spreadsheets to track and
report storage capacity and allocations. However, comparison of the diagrams and
spreadsheets identified significant differences. For example, the SAN diagrams showed
38.6 terabytes of capacity that were not listed in the spreadsheets, and the
spreadsheets identified 62.0 terabytes of capacity that were not shown on the SAN
diagrams. In addition, the amount of mid-range computer SAN storage reported by the
Enterprise Operations function Capacity Management Branch and the Distributed
Systems Management Branch are not consistent. For example, the storage volumes
reported on the Capacity Management Branch web site differed from those the
Distributed Systems Management Branch reported by 10.1 terabytes. The Distributed
Systems Management Branch report also listed 148.6 terabytes of storage capacity for
the Modernization mid-range computer systems that were not included in the Capacity
Management Branch report. As a result, the inaccurately and incompletely reported
web site information may have affected storage investment and resource decisions.
Finally, storage continues to be purchased although it does not comply with the IRS
Enterprise Architecture6 requirements. In FY 2004, the Enterprise Operations function
purchased approximately 5.0 terabytes of noncompliant direct attached storage7
capacity and maintenance costing $766,765 for 2 application systems the IRS expects
to use indefinitely. Enterprise Operations function management did not identify any

5
  EMC Corporation’s ControlCenter® – storage management software for use in monitoring, reporting, planning, and
provisioning storage resources across tiered environments.
6
  The Enterprise Architecture defines the IRS’ target business practices, the systems that enable these practices, and
the technology that will support the Enterprise Architecture.
7
  Direct attached storage is storage that either exists within the system cabinet or is directly connected to one or a
limited number of systems (typically two).
                                            3

plans to convert the systems to networked storage within 1 year, as required by IRS
procedures.
To improve mid-range computer storage management and ensure effective and efficient
utilization and accurate reporting, the Chief Information Officer should ensure the
implementation of the SAN Development Laboratory and the Enterprise Data
Warehouse Strategy, the assessment and implementation of an appropriate storage
management tool(s), and the identification and elimination of duplicate and old files. In
addition, the Chief Information Officer should ensure the accuracy and completeness of
storage capacity reports and the compliance of application systems’ storage with the
Enterprise Architecture.
Management’s Response: IRS management agreed with our recommendations and
has implemented several corrective actions including implementing the SAN
Development Laboratory, submitting change requests to the Enterprise Architecture as
required, and enforcing Enterprise Architecture waiver compliance. IRS management
plans to develop an Enterprise Data Warehouse Strategy and evaluate and test an
automated tool that meets the IRS’ SAN management requirements. The Enterprise
Operations function will issue an interim policy to restrict further creation of duplicate
data within the SAN, initiate a working group to establish policy related to routine
removal of duplicate and outdated files, and create a one-time plan to remove existing
duplicate and outdated files. For the consolidation and transitioned Modernization
systems, IRS management will ensure implementation of an automated tool that will
meet the IRS’ SAN management requirements. In addition, IRS management will
ensure accuracy and completeness of web site storage capacity reporting and effective
review of all major information technology acquisitions for Enterprise Architecture
compliance. Finally, noncompliant application systems owners will be required to
submit an Enterprise Architecture waiver request and a mitigation plan. The Enterprise
Operations function will support and monitor the approved plan through to completion.
However, IRS management disagreed with the report’s cost savings estimates identified
in Appendix IV based on concerns of including regular tape backup systems expenses
in the cost, the database utilization figures, and the standard for storage utilization.
Management’s complete response to the draft report is included as Appendix V.
Office of Audit Comment: We do not agree with the IRS’ response to our outcome
measures included in Appendix IV. The costs savings and the methodology for
calculating the savings were discussed with IRS management, and the audit report was
revised based on management’s comments. IRS management disagrees with including
tape backup systems expenses in the basis of our calculations. The information for
calculating the cost per terabyte was provided to us by IRS personnel, and they advised
the figures included all components required to make a technically redundant and
functional SAN.
IRS management also expressed concern about the accuracy of the database utilization
figures calculated and reported in Appendix IV. The IRS database administrators and
system administrators developed the computer programs to run against the databases
and provided us with the utilization rates. They also validated the methodology we used
                                           4

to calculate the utilization rates. During our prior discussions, IRS management
commented that other database processes such as application overhead and data
staging also require storage. However, they could not provide any documentation to
show the impact on storage from the database processes.
Finally, IRS management took issue with the 85 percent capacity utilization goal we
measured the IRS against based on our industry research. The Modernization
Information Technology and Security Services Strategy and Program Plan for
FY 2004 – 2005 states while the development of new technology evolves, existing
operations must continue and improvements must be made to meet the needs of tax
administration and demonstrate IRS commitment to improved service to taxpayers. The
Plan further states the IRS will continue to respond to this challenge by continuing
benchmarking efforts which allow comparison of IRS performance to that of similar
efforts in private industry. Our research shows this goal is one that companies in the
financial services industry and government agencies have worked toward achieving
and, therefore, seems to be a reasonable goal.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.
                Mid-range Computer Storage Resources Need Better Administration
                to Ensure Effective and Efficient Utilization and Accurate Reporting




                                                  Table of Contents


Background ............................................................................................... Page 1
Mid-range Computer Storage Area Networks Are Not Effectively
Managed to Ensure Efficient Utilization of Storage Resources ................. Page 4
         Recommendation 1: .......................................................................Page 9
         Recommendation 2: .......................................................................Page 10
         Recommendations 3 and 4: ...........................................................Page 11

Storage Capacity Is Not Accurately, Consistently, and Completely
Reported ................................................................................................... Page 11
         Recommendations 5 and 6: ...........................................................Page 14

Some Purchased Storage Did Not Comply With the Enterprise
Architecture Requirements........................................................................ Page 14
         Recommendation 7 and 8:.............................................................Page 17

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 18
Appendix II – Major Contributors to This Report ....................................... Page 20
Appendix III – Report Distribution List ....................................................... Page 21
Appendix IV – Outcome Measures............................................................ Page 22
Appendix V – Management’s Response to the Draft Report .................... Page 25
             Mid-range Computer Storage Resources Need Better Administration
             to Ensure Effective and Efficient Utilization and Accurate Reporting

                                    The Internal Revenue Service (IRS) requires a large and
Background
                                    complex computer environment to process and store
                                    taxpayer, financial, and administrative data. A significant
                                    portion of this workload is performed in the IRS’ mid-range
                                    computer environment consisting of file servers and related
                                    hardware, software, maintenance, and services. The
                                    Modernization and Information Technology Services
                                    organization is near the end of a 5-year consolidation of
                                    mid-range computer systems from multiple locations to
                                    3 Computing Centers:1 the Detroit Computing Center, the
                                    Enterprise Computing Center-Martinsburg, and the
                                    Enterprise Computing Center-Memphis.
                                    The mid-range computer workloads produce large volumes
                                    of information (data) that require storage. In October 2004,
                                    the IRS had approximately 340.2 terabytes2 of mid-range
                                    computer disk storage on the storage area networks (SAN)
                                    at the Computing Centers. The SANs are fiber-based,
                                    dedicated, high-speed networks used to move large volumes
                                    of data between computer systems and the storage devices
                                    (see Figure 1).




                                    1
                                      IRS Computing Centers support tax processing and information
                                    management through a data processing and telecommunications
                                    infrastructure.
                                    2
                                      One terabyte equals approximately 500 million pages of text.
                                                                                                 Page 1
Mid-range Computer Storage Resources Need Better Administration
to Ensure Effective and Efficient Utilization and Accurate Reporting

                                         Figure 1: SAN Network Diagram




                                                                  Tape
                                                                 Storage


                                                    SAN
                                     SAN           Fabric                     SAN
                                    Storage                                  Backup
                                    Device                                 Management
                                                                             Server




                                              Server



                                                       IRS LAN
                       Source: IRS Enterprise Architecture (Version 2.4, dated
                       August 2, 2004).

                       The Enterprise Operations function Distributed Systems
                       Management Branch is responsible for technical and
                       programmatic management of all IRS mid-range computer
                       systems including the purchase, use, management, and
                       disposition of mid-range computer storage. The Enterprise
                       Operations function Capacity Management Branch uses
                       Distributed Systems Management Branch-provided
                       information to prepare high-level storage briefing reports for
                       IRS management.
                       In Fiscal Years (FY) 2002 - 2005, the Distributed Systems
                       Management Branch spent about $23.2 million to purchase
                       mid-range computer storage hardware, software,
                       maintenance, and other support for consolidated mid-range
                       computer systems. The IRS has also projected 20 percent
                       annual growth in its mid-range computer storage
                       environment. However, the IRS is faced with
                       ever-shrinking budgets. Figure 2 summarizes the actual
                       expenditures for mid-range computer storage.




                                                                                        Page 2
Mid-range Computer Storage Resources Need Better Administration
to Ensure Effective and Efficient Utilization and Accurate Reporting

                              Figure 2: Mid-range Computer Storage Expenditures
                                              for FYs 2002 - 2005
                          Fiscal Year        Actual Expenditures        Additional Capacity
                                             (including hardware,           Purchased
                                                    software,
                                               maintenance, and
                                                 other support)
                             2002                     $3,128,527           84.0 terabytes

                             2003                    $10,183,318           25.0 terabytes

                             2004                     $6,528,536           47.7 terabytes

                             2005                     $3,319,366            0.0 terabytes

                            Totals                   $23,159,747          156.7 terabytes

                                        Average cost per terabyte ($23,159,747 divided by
                                                              156.7 terabytes) = $147,797
                       Source: FYs 2002 – 2005 expenditure information obtained from IRS
                       management.

                       This review was performed in the Enterprise Operations
                       function offices at the IRS National Headquarters in
                       New Carrollton, Maryland; the Detroit Computing Center in
                       Detroit, Michigan; the Enterprise Computing Center-
                       Martinsburg in Martinsburg, West Virginia; and the
                       Enterprise Computing Center-Memphis in
                       Memphis, Tennessee, during the period April 2004 through
                       February 2005. The audit was conducted in accordance
                       with Government Auditing Standards. Detailed information
                       on our audit objective, scope, and methodology is presented
                       in Appendix I. Major contributors to the report are listed in
                       Appendix II.




                                                                                      Page 3
             Mid-range Computer Storage Resources Need Better Administration
             to Ensure Effective and Efficient Utilization and Accurate Reporting

                                    The Clinger-Cohen Act of 19963 states the Chief
Mid-range Computer Storage
                                    Information Officer is responsible for promoting the
Area Networks Are Not
                                    effective and efficient design and operation of all major
Effectively Managed to Ensure
                                    information resources management processes for the
Efficient Utilization of Storage
                                    executive agency. The Internal Revenue Manual states the
Resources
                                    Chief Information Officer and Director, Enterprise
                                    Operations, within the Modernization and Information
                                    Technology Services organization are responsible for
                                    ensuring the effective and efficient use of the IRS automated
                                    information processing environment.
                                    The IRS Enterprise Architecture4 requires computer data
                                    storage to be provided through a mix of disk, tape, and
                                    optical drives configured to provide the fastest, most
                                    available solution consistent with application cost,
                                    performance, and availability constraints. All storage will
                                    be centrally managed through a concept called storage
                                    virtualization.
                                    Storage virtualization is the consolidation of multiple
                                    network storage devices into what appears to be a single
                                    storage unit (i.e., a virtual storage “pool”) and is often used
                                    in SAN environments. It makes tasks such as archiving,
                                    backup, and recovery of data easier and faster. When an
                                    application requires additional storage capacity, the storage
                                    manager can allocate the additional storage capacity from
                                    the pool. Because the resources allocated to an application
                                    can be increased or decreased at will, there is no need to
                                    overallocate storage. Storage virtualization and SAN
                                    architecture should result in the optimal placement of files
                                    to achieve the highest performance and availability.
                                    Our review of the mid-range computer SAN storage and
                                    storage management practices identified opportunities for
                                    more effective storage utilization.


                                    3
                                      (Federal Acquisition Reform Act of 1996) (Information Technology
                                    Management Reform Act of 1996), Pub. L. No. 104-106, 110 Stat. 642
                                    (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C.,
                                    15 U.S.C., 16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C.,
                                    31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C., 44 U.S.C.,
                                    49 U.S.C., 50 U.S.C.).
                                    4
                                      The Enterprise Architecture defines the IRS’ target business practices,
                                    the systems that enable these practices, and the technology that will
                                    support the Enterprise Architecture.
                                                                                                      Page 4
Mid-range Computer Storage Resources Need Better Administration
to Ensure Effective and Efficient Utilization and Accurate Reporting

                       Allocated storage is not being used
                       Storage industry research shows that data centers
                       historically only use 15 - 60 percent of their available
                       storage capacity, while they should have as a goal to use
                       closer to 85 percent. In October 2004, the Distributed
                       Systems Management Branch provided information
                       showing the IRS had approximately 340.2 terabytes of
                       mid-range computer SAN storage. The Distributed Systems
                       Management Branch also reported that 285.4 terabytes
                       (84 percent) was allocated to applications for use. However,
                       actual utilization of allocated storage space is not currently
                       reported and monitored.
                       Therefore, we worked with Detroit Computing Center,
                       Enterprise Computing Center-Martinsburg, and Enterprise
                       Computing Center-Memphis database administrators and
                       system administrators to obtain information about utilization
                       of the storage allocated to the database applications. The
                       database administrators and system administrators wrote
                       and manually executed scripts (i.e., small computer
                       programs) to gather the information for each database
                       application.
                       We received storage utilization information for 134.7 of the
                       285.4 terabytes of allocated mid-range computer SAN
                       storage from October 25, 2004, through February 3, 2005.
                       Due to the number of storage allocations and database tables
                       involved and the manual effort required, IRS management
                       did not have the resources available to provide usage
                       information for the remaining 150.7 terabytes of storage.
                       •   The information provided showed only
                           12.8 (9.5 percent) of the 134.7 terabytes of allocated
                           SAN storage contained data.
                       •   IRS computer storage personnel advised that the amount
                           of data being stored is tripled to 38.4 terabytes during
                           database application processing because the SAN
                           creates mirror and business continuity copies of the data.
                       •   In addition, IRS management explained the
                           Enterprise Computing Center-Martinsburg storage
                           allocated to the consolidated mid-range computer SAN
                           is designated for disaster recovery. Therefore, we
                           included the 10.1 terabytes allocated to this SAN in our
                                                                              Page 5
Mid-range Computer Storage Resources Need Better Administration
to Ensure Effective and Efficient Utilization and Accurate Reporting

                           analysis. However, 0.7 terabytes of the
                           10.1 terabytes of storage contained data and were
                           included in the previous calculations regarding the
                           12.8 terabytes of storage. Therefore, the remaining
                           9.4 terabytes not containing data were added to the
                           38.4 terabytes to determine storage utilization.
                       We concluded that 47.8 (35.5 percent) of the 134.7 terabytes
                       are used. We then applied the industry 85 percent storage
                       utilization goal to the analysis and determined the IRS has
                       approximately 66.7 terabytes (134.7 terabytes times
                       85 percent minus 47.8 terabytes) of available storage
                       capacity.
                       In addition, IRS management commented that storage space
                       is used by application files and data files (e.g., Master File5
                       data) transferred into the SAN. Storage space also is needed
                       for overhead and workspace for the database application
                       during processing. However, IRS management could not
                       provide any information showing the quantity of storage
                       used by these files and processes.
                       Based on the storage utilization information provided by the
                       database administrators and system administrators and the
                       average cost of $147,797 per terabyte (see Figure 2), the
                       IRS could avoid spending approximately $9.9 million for
                       additional storage capacity by improving the efficiency of
                       the current storage capacity (see Appendix IV).
                       The IRS mid-range computer SAN storage utilization rate is
                       low because the Distributed Systems Management Branch
                       monitors only the amount of storage that is allocated to
                       applications and does not have a process in place to analyze
                       utilization of its allocated SAN storage space. Further,
                       Distributed Systems Management Branch management and
                       employees have not completely familiarized themselves
                       with the ControlCenter®6 software management tool to



                       5
                         The IRS database that stores various types of taxpayer account
                       information. This database includes individual, business, and employee
                       plans and exempt organizations data.
                       6
                         EMC Corporation’s ControlCenter® – storage management software
                       for use in monitoring, reporting, planning, and provisioning storage
                       resources across tiered environments.
                                                                                      Page 6
Mid-range Computer Storage Resources Need Better Administration
to Ensure Effective and Efficient Utilization and Accurate Reporting

                       determine its capabilities in monitoring utilization of the
                       IRS’ mid-range computer SAN storage space.
                       Storage industry research also shows the flexibility offered
                       by SANs and comprehensive storage management tools can
                       greatly benefit data centers. The storage management tools
                       can optimally improve utilization through increasing
                       allocation efficiency, cost-effectively controlling the amount
                       of storage purchased, and automating manual reporting
                       processes to assess usage trends and storage growth. The
                       Distributed Systems Management Branch purchased storage
                       for a SAN Development Laboratory it plans to use to
                       determine how ControlCenter® and/or other storage
                       management tools can help it more effectively and
                       efficiently manage SAN storage.
                       Duplicate and old files are not being routinely identified
                       in the SANs
                       According to storage industry experts, about one-half of
                       stored file server data has not been accessed in 90 days or
                       more. Therefore, the probability of files with these data
                       being accessed or needed is very low. In addition, duplicate
                       and obsolete files contribute unnecessarily to overall storage
                       growth. At our request, Enterprise Computing Center-
                       Martinsburg and Enterprise Computing Center-Memphis
                       database administrators and system administrators created
                       and manually ran scripts to list file characteristics (e.g., file
                       names, file sizes, date of last file modification) for Oracle®
                       database files on the SANs. The resulting file listings, dated
                       October 14, 2004, through November 3, 2004, identified
                       4,405 files that totaled 17.9 terabytes on the SANs. Our
                       review of the script results identified:
                       •   Instances where file names were repeated two or more
                           times with minor differences in the names
                           (e.g., P1_DATA_LG_01.dbf, P1_DATA_LG_02.dbf,
                           etc.). To determine whether files contain duplicate data,
                           the contents would have to be compared, which is
                           outside the scope of Modernization and Information
                           Technology Services organization personnel’s authority
                           to access taxpayer information. A Distributed Systems
                           Management Branch frontline manager stated the IRS
                           has never implemented file naming conventions that
                           would facilitate identification of duplicate files.
                                                                                 Page 7
Mid-range Computer Storage Resources Need Better Administration
to Ensure Effective and Efficient Utilization and Accurate Reporting

                           To address the prevention of duplicate data storage
                           across existing and future application systems, the
                           Modernization and Information Technology Services
                           organization established the Enterprise Data
                           Management Office in November 2002. The Enterprise
                           Data Management Office is currently working on the
                           Enterprise Data Warehouse Strategy and has brought
                           together representatives from the Modernization and
                           current production areas of the Modernization and
                           Information Technology Services organization.
                           However, Enterprise Operations function personnel
                           stated the current effort is the third of this type to be
                           established since 2000, and none of the previous efforts
                           were completed.
                       •   A total of 844 “old” files,7 using 2.7 terabytes of storage,
                           including 626 Electronic Fraud Detection System8 files
                           totaling 2.5 terabytes. See Figure 3 for the file
                           information identified.




                       7
                         Files over 90 days since last modified and temporary files over 7 days
                       old.
                       8
                         The Electronic Fraud Detection System is a compliance system that
                       provides tools needed to perform, for example, prerefund detection of
                       potentially criminal fraudulent tax returns.


                                                                                        Page 8
Mid-range Computer Storage Resources Need Better Administration
to Ensure Effective and Efficient Utilization and Accurate Reporting

                                     Figure 3: “Old” Files Identified on the SANs
                               File          Number of          File Size       Percentage of
                           Classification      Files                            Total File Size
                                                                               (17.9 terabytes)
                       Last Modified in          468       1.8 terabytes                10.1
                       2004 but Over
                       90 Days Old
                       Last Modified             292       0.7 terabytes                 3.9
                       Before 2004
                       Temporary and              84       0.2 terabytes                 1.1
                       Undo9 Files
                       Over 7 Days
                       Old
                       Totals                    844       2.7 terabytes                15.1
                       Source: IRS personnel-created scripts.

                       Potentially duplicate and old data reside on the mid-range
                       computer SANs because mid-range computer storage
                       personnel do not monitor storage usage and consider it a
                       responsibility of the application owners to identify and
                       remove duplicate and old data.
                       As a result of not having an implemented process or tool to
                       ensure the IRS is effectively and efficiently using allocated
                       storage and identifying duplicate and old files, the IRS
                       continues to risk purchasing additional storage it does not
                       need.

                       Recommendations

                       To improve SAN management, the Chief Information
                       Officer should ensure:
                       1. The implementation of the SAN Development
                          Laboratory and the Enterprise Data Warehouse Strategy.
                       Management’s Response: The Technical Systems Software
                       Division implemented the SAN Development Laboratory
                       for testing of SAN-related software to improve
                       configuration, monitoring, and utilization reporting. The


                       9
                        Files recreated after inadvertently deleting, renaming, moving, or
                       copying a file.
                                                                                        Page 9
Mid-range Computer Storage Resources Need Better Administration
to Ensure Effective and Efficient Utilization and Accurate Reporting

                       Enterprise Architecture area will develop the appropriate
                       Enterprise Data Warehouse Strategy.
                       2. The assessment of the capabilities of ControlCenter® or
                          alternative tools to manage the IRS’ mid-range computer
                          storage, including monitoring the usage rates of
                          allocated storage.
                       Management’s Response: The Enterprise Operations
                       function will assess the capabilities and ensure documented
                       evaluation and test of an automated tool that meets the IRS’
                       SAN management requirements for configuration,
                       monitoring, and database utilization. However, IRS
                       management disagreed with the report’s cost savings
                       estimates based on concerns of including regular tape
                       backup systems expenses in the cost, the database utilization
                       figures, and the standard for storage utilization.
                       Office of Audit Comment: We do not agree with the IRS’
                       response to our outcome measures included in Appendix IV.
                       The costs savings and the methodology for calculating the
                       savings were discussed with IRS management and the audit
                       report was revised based on management’s comments.
                       While IRS management disagreed with including tape
                       backup systems expenses in the basis of our calculations,
                       the information for calculating the cost per terabyte was
                       provided to us by IRS personnel, and they advised us the
                       figures included all components required to make a
                       technically redundant and functional SAN.
                       IRS management also expressed concern about the accuracy
                       of the database utilization figures calculated and reported in
                       Appendix IV. The IRS database administrators and system
                       administrators developed the computer programs to run
                       against the databases and provided us with the utilization
                       rates. They also validated the methodology we used to
                       calculate the utilization rates. During our prior discussions,
                       IRS management commented that other database processes
                       such as application overhead and data staging also require
                       storage. However, they could not provide any
                       documentation to show the impact on storage from the
                       database processes.
                       Finally, IRS management took issue with the 85 percent
                       capacity utilization goal we measured the IRS against based

                                                                             Page 10
              Mid-range Computer Storage Resources Need Better Administration
              to Ensure Effective and Efficient Utilization and Accurate Reporting

                                     on our industry research. The Modernization Information
                                     Technology and Security Services Strategy and Program
                                     Plan for FY 2004 – 2005 states while the development of
                                     new technology evolves, existing operations must continue
                                     and improvements must be made to meet the needs of tax
                                     administration and demonstrate IRS commitment to
                                     improved service to taxpayers. The Plan further states the
                                     IRS will continue to respond to this challenge by continuing
                                     benchmarking efforts which allow comparison of IRS
                                     performance to that of similar efforts in private industry.
                                     Our research shows that this goal is one that companies in
                                     the financial services industry and government agencies
                                     have worked toward achieving and, therefore, seems to be a
                                     reasonable goal.
                                     3. The implementation of ControlCenter® or an alternative
                                        tool to collect and report accurate mid-range computer
                                        storage capacity and utilization information.
                                     Management’s Response: For the consolidation and
                                     transitioned Modernization systems, the Enterprise
                                     Operations function will ensure complete implementation of
                                     an automated tool that will meet the IRS’ SAN management
                                     requirements for configuration, monitoring, and database
                                     utilization.
                                     4. The identification of files (e.g., multiple replications of
                                        the same data and files with old data warranting
                                        removal) that can be eliminated and ensure their
                                        removal.
                                     Management’s Response: The Enterprise Operations
                                     function will issue an interim policy to restrict further
                                     creation of duplicate data within the SAN, initiate a working
                                     group to establish policy related to routine removal of
                                     duplicate and outdated files, and create a one-time plan to
                                     remove existing duplicate and outdated files.
                                     The Government Accountability Office document Assessing
Storage Capacity Is Not
                                     Risks and Returns: A Guide for Evaluating Federal
Accurately, Consistently, and
                                     Agencies’ IT Investment Decision-making10 states that,
Completely Reported
                                     despite making a huge investment in information


                                     10
                                       Government Accountability Office/AIMD-10.1.13 (dated
                                     February 1997). IT stands for information technology.
                                                                                              Page 11
Mid-range Computer Storage Resources Need Better Administration
to Ensure Effective and Efficient Utilization and Accurate Reporting

                       technology, many Federal Government operations are still
                       hampered by inaccurate data and inadequate systems.
                       Informed management decisions can occur only if accurate,
                       reliable, and up-to-date information is included in the
                       decision-making process.
                       Distributed Systems Management Branch personnel use
                       automated network management tools to detect and diagram
                       storage arrays on the mid-range computer SANs. They also
                       manually prepare spreadsheets to track and report storage
                       capacity and allocations. As of October 2004, the
                       spreadsheets indicated the IRS mid-range computer SAN
                       capacity totaled approximately 340.2 terabytes. Our
                       comparison of the SAN diagrams to the spreadsheets found
                       the following inaccuracies:
                       •   The SAN diagrams showed 1 storage array with
                           38.6 terabytes of capacity that was not listed in the
                           spreadsheets.
                       •   The spreadsheets identified 2 storage arrays with
                           62.0 terabytes of capacity that were not shown on the
                           SAN diagrams.
                       These inaccuracies indicate management does not have a
                       reliable storage capacity and allocation reporting
                       methodology. Distributed Systems Management Branch
                       management stated they do not use the ControlCenter®
                       storage management software reporting tool because their
                       limited experience with the tool had shown it to be
                       cumbersome to use.
                       In addition, the amount of mid-range computer SAN
                       (i.e., Infrastructure SAN) storage reported by the Capacity
                       Management Branch and Distributed Systems Management
                       Branch are not consistent. Results of our review of the
                       storage capacity reported on the Capacity Management
                       Branch web site differed from the amount the Distributed
                       Systems Management Branch reported by 10.1 terabytes
                       because the Capacity Management Branch was not timely
                       updating its web site. Capacity Management Branch
                       personnel indicated they receive monthly information from
                       the Distributed Systems Management Branch and are
                       responsible for updating the Capacity Management Branch
                       web site with the most current information. Figure 4 shows
                                                                              Page 12
Mid-range Computer Storage Resources Need Better Administration
to Ensure Effective and Efficient Utilization and Accurate Reporting

                       the storage amounts reported by the Capacity Management
                       Branch and Distributed Systems Management Branch,
                       respectively.
                          Figure 4: Mid-range Computer SAN Storage Volume Reports


                                          350.0
                                          300.0                                  148.6




                          Storage (TBs)
                                          250.0
                                          200.0         0.0
                                          150.0       181.5                     191.6
                                          100.0
                                           50.0
                                            0.0
                                                  October 31, 2004         October 25, 2004
                                                       (CMB)                   (DSMB)
                                                              Storage Report Dates

                                                    Infrastructure SAN   Modernization SAN

                       Source: Storage capacity reports located on the Capacity Management
                       Branch (CMB) web site and Enterprise Operations function Distributed
                       Systems Management Branch (DSMB) spreadsheets detailing storage
                       volumes for all three Computing Centers.

                       In addition, the Distributed Systems Management Branch
                       report listed 148.6 terabytes of storage capacity for the
                       Modernization mid-range computer systems at the Detroit
                       Computing Center and Enterprise Computing Center-
                       Martinsburg that were not included in the Capacity
                       Management Branch report. IRS management stated the
                       storage information provided on the Capacity Management
                       Branch web site is used for executive briefings. As a result,
                       the inaccurate and incomplete information may have
                       affected storage investment and resource decisions.
                       Capacity Management Branch personnel stated they would
                       be updating the mid-range computer storage capacity
                       reported on their web site.
                       Without accurate and complete tracking and reporting of
                       mid-range computer SAN storage, the IRS does not know
                       how much storage it has and may be unable to make reliable
                       investment and resource decisions.



                                                                                         Page 13
           Mid-range Computer Storage Resources Need Better Administration
           to Ensure Effective and Efficient Utilization and Accurate Reporting

                                  Recommendations

                                  To improve capacity and usage reporting, the Chief
                                  Information Officer should ensure:
                                  5. The implementation of an automated SAN management
                                     tool.
                                  Management’s Response: For the consolidation and
                                  transitioned Modernization systems, the Enterprise
                                  Operations function will ensure implementation of
                                  ControlCenter® 5.2 (or alternative tool) to meet the IRS’
                                  SAN management requirements for configuration,
                                  monitoring, and database utilization.
                                  6. The accuracy and completeness of Capacity
                                     Management Branch mid-range computer storage
                                     capacity reports.
                                  Management’s Response: The Enterprise Operations
                                  function will ensure accuracy and completeness of web site
                                  storage capacity reporting.
                                  The Internal Revenue Manual states the Chief Information
Some Purchased Storage Did
                                  Officer and Director, Enterprise Operations, are responsible
Not Comply With the
                                  for ensuring the effective and efficient use of the IRS
Enterprise Architecture
                                  automated information processing environment. The IRS
Requirements
                                  Enterprise Architecture requires all data to be stored on
                                  networked storage. The Enterprise Architecture prohibits
                                  application and data file storage on direct attached storage11
                                  and allows, during a transition period, operating system
                                  software storage on direct attached storage. To prevent
                                  compromise of the Enterprise Architecture standards, the
                                  Distributed Systems Management Branch implemented
                                  procedures limiting management approval of storage to
                                  requests that comply with the Enterprise Architecture.
                                  Requests for noncompliant storage can receive a 1-year
                                  interim approval if, for example, the requestor is planning to
                                  become compliant with the Enterprise Architecture.
                                  The Modernization and Information Technology Services
                                  organization Enterprise Operations and End User

                                  11
                                     Direct attached storage is storage that either exists within the system
                                  cabinet or is directly connected to one or a limited number of systems
                                  (typically two).
                                                                                                    Page 14
Mid-range Computer Storage Resources Need Better Administration
to Ensure Effective and Efficient Utilization and Accurate Reporting

                       Equipment and Services function managers indicated they
                       understood the Enterprise Architecture storage network and
                       virtualization requirements apply to current and forthcoming
                       projects. For example, Enterprise Operations function
                       Distributed Systems Management Branch management
                       stated all new mid-range computer consolidation projects
                       are being configured for a SAN. Also, storage for two
                       systems currently operating with direct attached storage is
                       being converted to a SAN.
                       However, the Enterprise Operations function purchased
                       direct attached storage capacity and maintenance for two
                       application systems that the IRS expects to use indefinitely.
                       Enterprise Operations function management did not identify
                       any plans to convert the systems to networked storage
                       within 1 year. The two systems are:
                       •    The Offshore Credit Card Project/Offshore
                            Voluntary Compliance Initiative,12 which is a new
                            application placed into production in March 2004. IRS
                            management approved the direct attached storage
                            requisition, justification, and Enterprise Architecture
                            review without an explanation of why the storage does
                            not comply with the Enterprise Architecture or any
                            indication that the application system would ever be
                            brought into compliance with the Enterprise
                            Architecture.
                            In July 2004, the IRS paid $148,635 to purchase
                            4.1 terabytes of storage to implement production at the
                            Enterprise Computing Center-Martinsburg. In late
                            2004, the Offshore Credit Card Project/Offshore
                            Voluntary Compliance Initiative production system was
                            moved to the Detroit Computing Center and installed on
                            a computer system and storage purchased in May 2003.
                            The computer system and storage were available for the
                            Offshore Credit Card Project/Offshore Voluntary
                            Compliance Initiative system because they were not
                            being used for their initial purpose.



                       12
                         The Offshore Credit Card Project/Offshore Voluntary Compliance
                       Initiative is used to monitor offshore credit card holders’ tax
                       compliance.
                                                                                  Page 15
Mid-range Computer Storage Resources Need Better Administration
to Ensure Effective and Efficient Utilization and Accurate Reporting

                       •    The Electronic Management System,13 which has
                            operated at the Enterprise Computing Center-Memphis
                            and Austin, Texas, Campus14 for many years, and
                            currently supports storage for the Modernized e-File15
                            system. In January 2004, the IRS paid $618,130 for
                            876 gigabytes (0.9 terabytes) of direct attached storage
                            to replace the obsolete and at-capacity storage hardware
                            and to relocate the Austin Campus Electronic
                            Management System storage to the Enterprise
                            Computing Center-Martinsburg. However, the
                            replacement storage is not Enterprise Architecture
                            compliant, and the interim period is longer than 1 year.
                            The approved justification stated the Electronic
                            Management System would migrate to the
                            Modernization platform in 2009, and an interim
                            migration to a mid-range computer consolidation
                            platform was not planned.
                       As a result of not having an effective Enterprise
                       Architecture review and effective management of mid-range
                       computer SAN storage, the IRS unnecessarily purchased
                       approximately 5.0 terabytes of storage costing $766,765
                       (see Appendix IV). The IRS also continues to be at risk of
                       unnecessarily purchasing direct attached storage, wasting
                       limited resources, and compromising the Enterprise
                       Architecture.




                       13
                          The Electronic Management System is the IRS’ secure electronic post
                       office receiving, acknowledging, validating, and routing various types of
                       tax and tax-related data.
                       14
                          The campuses are the data processing arm of the IRS. They process
                       paper and electronic submissions, correct errors, and forward data to the
                       Computing Centers for analysis and posting to taxpayer accounts.
                       15
                          First implemented in February 2004, the Modernized e-File system is
                       an Internet web-based platform for receiving and processing electronic
                       returns. The Modernized e-File system was developed as part of the
                       IRS’ ongoing Business Systems Modernization program.
                                                                                      Page 16
Mid-range Computer Storage Resources Need Better Administration
to Ensure Effective and Efficient Utilization and Accurate Reporting

                       Recommendations

                       To improve compliance with the Enterprise Architecture,
                       the Chief Information Officer should ensure:
                       7. The effectiveness of all mid-range computer storage
                          requisition reviews and, if Enterprise Architecture
                          compliance is to be waived, the justification complies
                          with IRS procedures.
                       Management’s Response: The Enterprise Operations
                       function will implement controls that ensure effective
                       review of all major information technology acquisitions for
                       Enterprise Architecture compliance.
                       8. Application systems owners using storage methods that
                          are not compliant with the Enterprise Architecture (e.g.,
                          direct attached storage) develop and implement plans to
                          convert to Enterprise Architecture-compliant network
                          storage.
                       Management’s Response: The Enterprise Operations
                       function has submitted change requests to the Enterprise
                       Architecture as required and enforces Enterprise
                       Architecture waiver compliance during the web Request
                       Tracking System16 review approval process. The Enterprise
                       Operations function will require noncompliant application
                       system owners to submit an Enterprise Architecture waiver
                       request and the required mitigation plan to become
                       compliant with the Enterprise Architecture. The Enterprise
                       Operations function will support and monitor the approved
                       plan through to completion.




                       16
                         The web Request Tracking System is a web-based application that
                       provides users the capability to create, route, approve, and fund
                       requisitions for goods and services.




                                                                                   Page 17
                  Mid-range Computer Storage Resources Need Better Administration
                  to Ensure Effective and Efficient Utilization and Accurate Reporting

                                                                                                       Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the effectiveness and efficiency of the Internal
Revenue Service’s (IRS) mid-range computer storage management practices. To accomplish this
objective, we:
I.       Compared a listing of all mid-range computer disk storage and devices containing storage
         for each of the three Computing Centers1 to storage area network (SAN)2 design diagrams
         and to the amount of storage reported on the Enterprise Operations function Capacity
         Management Branch web site. We reviewed storage volume allocations and usage
         reports to determine the amount of available SAN storage and the amount of SAN storage
         allocated to database applications. We requested database and system administrators to
         run scripts (i.e., small computer programs) to identify the amount of the 340.2 terabytes3
         of storage used by database applications. Management reports showed 285.4 of the
         340.2 terabytes were allocated to database applications. We reviewed storage utilization
         information for 134.7 of the 285.4 terabytes of allocated mid-range computer SAN
         storage from October 25, 2004, through February 3, 2005. Due to the number of storage
         allocations and database tables involved and the manual effort required, IRS management
         did not have the resources available to provide utilization information for the remaining
         150.7 terabytes of storage.
         We interviewed database and system administrators and Enterprise Operations function
         Distributed Systems Management Branch personnel to identify current needs, projected
         budget needs, and actual expenditures for mid-range computer storage for Fiscal Years
         2002 - 2005. We also researched storage industry information on storage utilization.
II.      Interviewed Distributed Systems Management Branch personnel responsible for
         overseeing the mid-range computer storage Enterprise Architecture,4 personnel from the
         Enterprise Operations function Distributed Systems Software Branch responsible for
         managing mid-range computer hardware and software, End User Equipment and Services
         function personnel, and other Enterprise Operations function personnel to determine
         whether policies and procedures have been developed for reviewing changes to the
         Enterprise Architecture. We also identified and reviewed any information technology



1
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
2
  A SAN is a fiber-based, dedicated, high-speed network used to move large volumes of data between the computer
systems and the storage devices.
3
  One terabyte equals approximately 500 million pages of text.
4
  The Enterprise Architecture defines the IRS’ target business practices, the systems that enable these practices, and
the technology that will support the Enterprise Architecture.
                                                                                                              Page 18
                   Mid-range Computer Storage Resources Need Better Administration
                   to Ensure Effective and Efficient Utilization and Accurate Reporting

         projects using direct attached storage5 to determine the cost of the storage and whether
         the storage was properly reviewed, approved, and justified.
III.     Reviewed the IRS’ as-built-architecture documentation and interviewed mid-range
         computer storage management at each Computing Center to identify potential duplication
         of files. We also interviewed mid-range computer storage, system, and database
         administrators at each Computing Center to identify potential data duplication actions.
         At our request, the database and system administrators generated and ran scripts
         providing the characteristics (e.g., file names, file sizes, date of last file modification) of
         files in the SAN and storage array capacity, table space allocation, and usage data.




5
  Direct attached storage is storage that either exists within the system cabinet or is directly connected to one or a
limited number of systems (typically two).
                                                                                                                Page 19
              Mid-range Computer Storage Resources Need Better Administration
              to Ensure Effective and Efficient Utilization and Accurate Reporting

                                                                                Appendix II



                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Danny Verneuille, Audit Manager
Mark Carder, Lead Auditor
James Douglas, Senior Auditor
Frank Greene, Senior Auditor
Kim McManis, Auditor




                                                                                         Page 20
              Mid-range Computer Storage Resources Need Better Administration
              to Ensure Effective and Efficient Utilization and Accurate Reporting

                                                                                Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Associate Chief Information Officer, Information Technology Services OS:CIO:I
Director, Stakeholder Management OS:CIO:SM
Director, Business Systems Development OS:CIO:I:B
Director, End User Equipment and Services OS:CIO:I:EU
Director, Enterprise Operations OS:CIO:I:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                     Page 21
                 Mid-range Computer Storage Resources Need Better Administration
                 to Ensure Effective and Efficient Utilization and Accurate Reporting

                                                                                                Appendix IV


                                           Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
    •   Cost Savings, Funds Put to Better Use – Potential $9,858,060 (see page 4).
Methodology Used to Measure the Reported Benefit:
We worked with Internal Revenue Service (IRS) Computing Center1 database administrators and
system administrators to obtain storage array capacity, table space allocation, and usage data.
The IRS reported 285.4 of approximately 340.2 terabytes2 were allocated to databases. We
received storage utilization information from October 25, 2004, through February 3, 2005, for
only 134.7 of the 285.4 terabytes of allocated mid-range computer Storage Area Network (SAN)3
storage. The information provided showed only 12.8 (9.5 percent) of the 134.7 terabytes of
allocated SAN storage contained data. IRS computer storage personnel advised that the amount
of storage in use would be tripled to 38.4 terabytes during database application processing
because the SAN creates mirror and business continuity copies of the data. In addition,
10.1 terabytes (0.7 terabytes included in 12.8 terabytes that contained data plus 9.4 terabytes that
did not contain data) of the Enterprise Computing Center-Martinsburg storage allocated to the
consolidated mid-range computer SAN is designated for disaster recovery. Therefore, we
included the 9.4 terabytes of allocated storage not containing data in our assessment of utilized
storage and concluded that 47.8 (35.5 percent) of the 134.7 terabytes are used. We then applied
the industry goal of 85 percent utilization of storage to the analysis and determined the IRS has
66.7 terabytes of available storage capacity. Table 1 shows how we estimated the available
storage capacity. Due to the number of storage allocations and database tables involved and the
manual effort required, IRS management did not have the resources available to provide
utilization information for the remaining 150.7 terabytes of storage.
In addition, IRS management commented that storage space is used by application files and data
files (e.g., Master File4 data) transferred into the SAN. Storage space also is needed for overhead


1
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
2
  One terabyte equals approximately 500 million pages of text.
3
  A SAN is a fiber-based, dedicated, high-speed network used to move large volumes of data between the computer
systems and the storage devices.
4
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                        Page 22
                  Mid-range Computer Storage Resources Need Better Administration
                  to Ensure Effective and Efficient Utilization and Accurate Reporting

and workspace for the database application during processing. However, IRS management could
not provide any information showing the quantity of storage used by these files and processes.
           Table 1: Calculation of Available Mid-range Computer Storage Capacity (in terabytes)
                              Total Capacity       85% Capacity           Capacity              Available Storage
                                                    Usage Goal             Used                     Capacity
                                                     (i.e., Total                         (i.e., 85% Capacity Usage
                                                  Capacity column                             Goal column minus
                                                    times 85%)                              Capacity Used column)
Capacity Utilized (where      134.7 terabytes      114.5 terabytes      47.8 terabytes           66.7 terabytes
    the IRS provided
utilization information)
Average cost per terabyte of storage purchased in Fiscal Years 2002 - 2005
(including hardware, software, maintenance, and other support)                                      = $147,797
Potential savings by improving the efficiency of current storage utilization
(66.7 terabytes times $147,797 per terabyte)                                                      = $9,858,060
Source: IRS storage management reports and personnel-created scripts.

Type and Value of Outcome Measure:
    •    Inefficient Use of Resources – Actual; $766,765 (see page 14).
Methodology Used to Measure the Reported Benefit:
We identified applications and systems that use direct attached storage5 and reviewed requisition,
justification, and delivery order documents for direct attached storage purchased for these
applications and systems in Fiscal Years 2003 and 2004. We determined the IRS purchased
direct attached storage for the Offshore Credit Card Project/Offshore Voluntary Compliance
Initiative6 and the Electronic Management System,7 but the approved justifications did not
comply with IRS guidelines. In addition, the purchases may not have been necessary given the
storage utilization rate of only 35.5 percent of the 134.7 terabytes of SAN storage analyzed.
Table 2 shows the amount of direct attached storage purchased and its cost.




5
  Direct attached storage is storage that either exists within the system cabinet or is directly connected to one or a
limited number of systems (typically two).
6
  The Offshore Credit Card Project/Offshore Voluntary Compliance Initiative is used to monitor offshore credit card
holders’ tax compliance.
7
  The Electronic Management System is the IRS’ secure electronic post office receiving, acknowledging, validating,
and routing various types of tax and tax-related data.
                                                                                                             Page 23
                 Mid-range Computer Storage Resources Need Better Administration
                 to Ensure Effective and Efficient Utilization and Accurate Reporting

                            Table 2: Direct Attached Storage Purchases and Costs
           IRS System                    Terabytes of Direct Attached      Direct Attached Storage Cost
                                             Storage Purchased
Offshore Credit Card                             4.1 terabytes                      $148,635
Project/Offshore Voluntary
Compliance Initiative
Electronic Management System                     0.9 terabytes                      $618,130
(costs include racks, servers,
standby power supply, switches,
maintenance, and other items)
Totals                                           5.0 terabytes                      $766,765
Source: IRS purchase requisition information.




                                                                                                 Page 24
Mid-range Computer Storage Resources Need Better Administration
to Ensure Effective and Efficient Utilization and Accurate Reporting

                                                              Appendix V



      Management’s Response to the Draft Report




                                                                       Page 25
Mid-range Computer Storage Resources Need Better Administration
to Ensure Effective and Efficient Utilization and Accurate Reporting




                                                                       Page 26
Mid-range Computer Storage Resources Need Better Administration
to Ensure Effective and Efficient Utilization and Accurate Reporting




                                                                       Page 27
Mid-range Computer Storage Resources Need Better Administration
to Ensure Effective and Efficient Utilization and Accurate Reporting




                                                                       Page 28
Mid-range Computer Storage Resources Need Better Administration
to Ensure Effective and Efficient Utilization and Accurate Reporting




                                                                       Page 29
Mid-range Computer Storage Resources Need Better Administration
to Ensure Effective and Efficient Utilization and Accurate Reporting




                                                                       Page 30
Mid-range Computer Storage Resources Need Better Administration
to Ensure Effective and Efficient Utilization and Accurate Reporting




                                                                       Page 31
Mid-range Computer Storage Resources Need Better Administration
to Ensure Effective and Efficient Utilization and Accurate Reporting




                                                                       Page 32
Mid-range Computer Storage Resources Need Better Administration
to Ensure Effective and Efficient Utilization and Accurate Reporting




                                                                       Page 33
